#19-6616
IN THE SUPREME COURT OF THE UNITED STATES

Russell Rope,
Petitioner;
vs.
Facebook, Inc., Apple, Inc., Alphabet, Inc., Twitter, Inc.,
JPMorgan Chase & Co., & John Does 1 to 10,
Respondents,
On Petition for Extraordinary Writ
Specifically for Writs of Mandamus & Prohibition
The United States Court of Appeals for the Ninth Circuit &
The United States District Court for the Central District of California
#18-55782 & #2:17-cv-04921

AFFIDAVIT & CERTIFICATION OF A PARTY UNREPRESENTED BY COUNSEL
Petitioner, Russell Rope, seeks [Emergency] Extraordinary Writ(s) for the above entitled
case number 19-5616. Briefly and distinctly stated, this Petition is necessary, not limited
to based on grounds not previously presented, which can be elaborated upon as
necessary, but also because constitutional due process rights are being violated, life is in
danger, and humanitarian rights of citizens are at stake. Denying the previous Petition(s)
were grave errors that must be corrected ASAP; like immediately upon receipt of this
Petition is presented in great faith and not for delay. Please grantthis vitaljugtice.
/s/Rl
:OPE-6/10/2Q
Petitioner & Plaintiff In Pro Per
(310) 663-7655

